U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

The Solicitor General

November 12, 2019
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Trading Technologies International, Inc. v. IBG LLC, et al.,
No. 19-353

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2019 and placed on the docket on September 18, 2019. The government's response is now
due, after one extension, on November 18, 2019. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including December 18, 2019, within
which to file the government's response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government's response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.

Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-03 53
TRADING TECEINOLOGIES INTERNATIONAL, INC.
IBG LLC, ET AL.

TODD P. BLAKELY
SHERIDAN ROSS P.C.
1560 BROADWSAY,
SUITE 1200
DENVER, CO 80202
303-863-9700
STEVEN F. BORSAND
TRADING TECHNOLOGIES INTERNATIONAL
2225. RIVERSIDE PLAZA
SUITE 1100
CHICAGO, IL 60606
ANDREW M. GROSSMAN
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-861-1697
AGROSSMAN@BAKERLAW.COM

